APPENDIX A

Affirmed and Memorandum Opinion filed February 11,2020.

In The

Jfamrtmitlj Court of Appeals
NO. 14-18-00547-CR
RICKY HAYWOOD-WATSON, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 339th District Court
Harris County, Texas
Trial Court Cause No. 1494189
MEMORANDUM OPINION
Appellant appeals his conviction for continuous sexual abuse of a child.
Appellant’s appointed counsel filed a brief in which he concludes the appeal is
wholly frivolous and without merit. The brief meets the requirement of Anders v.
California, 386 U.S. 738, 87 S. Ct. 1396 (1967), presenting a professional
evaluation of the record and demonstrating why there are no arguable grounds to
be advanced. See High v. State, 573 S.W.2d 807, 811-13 (Tex. Crim. App. 1978).

A copy of counsel’s brief was delivered to appellant. Appellant was advised
of the right to examine the appellate record and file a pro se response. See Stafford
v. State, 813 S.W.2d 503, 512 (Tex. Crim. App. 1991). At appellant’s request, the
record was provided to him. On October 14, 2019, appellant filed a pro se response
to counsel’s brief. Appellant also filed a reply to the State’s brief on December 16,
2019.
We have carefully reviewed the record, counsel’s brief, appellant’s response
and reply, and the State’s brief, and agree the appeal is wholly frivolous and
without merit. Further, we find no reversible error in the record. A discussion of
the brief or pro se response would add nothing to the jurisprudence of the state. We
are not to address the merits of each claim raised in an Anders brief or a pro se
response when we have determined there are no arguable grounds for review. See
Bledsoe v. State, 178 S.W.3d 824, 827-28 (Tex. Crim. App. 2005).
Accordingly, the judgment of the trial court is affirmed.

PER CURIAM
Panel consists of Chief Justice Frost and Justices Jewell and Spain.
Do Not Publish — Tex. R. App. P. 47.2(b).

2

APPENDIX B

FILE COPY

Chief Justice

Justices

kem Thompson

Tracy Christopher
ken wise
Kevin Jewell
Frances Bourliot
Jerry Zimmerer
Charles A. Spain
Meagan Hassan
Margaret "Meg" Poissant

Clerk

Christopher a. Prine
Phone 713-274-2800

Mmtetttfbi dkmrt Appeal#
301 Fannin, Suite 245
Houston, Texas 77002

Tuesday, March 17, 2020
Ricky Haywood-Watson
#02206869
Telford Unit

3899 Hwy 98
New Boston, TX 75570

Eric Kugler
Assistant District Attorney
1201 Franklin
Suite 600
Houston, TX 77002-1923
* DELIVERED VIA E-MAIL *

Dan McCrory
Harris County District Attorney Office
500 Jefferson
Suite 600
Houston, TX 77002
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number: 14-18-00547-CR
Trial Court Case Number: 1494189

Style: Ricky Haywood-Watson

v.
The State of Texas
Please be advised that on this date the Court DENIED APPELLANT’S motion
for rehearing in the above cause.
Panel Consists of Chief Justice Frost and Justices Jewell and Spain

Sincerely,
Is/ Christopher A. Prine, Clerk

cc:

Frost

APPENDIX C

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

6/17/2020
COA No. 14-18-00547-CR
HAYWOOD-WATSON, RICKY Tr. Ct. No. 1494189
PD-0370-20
On this day, the Appellant's Pro Se petition for discretionary review has been
refused.
Deana Williamson, Clerk
RICKY HAYWOOD-WATSON
TELFORD UNIT - TDC # 2206869
3899 STATE HWY 98
NEW BOSTON, TX 75570

APPENDIX D

/u
on
Ricky Haywood-Watson
TDCJ No. 2206869, Barry B. Telford Unit
3899 State Highway 98, New Boston, Texas 75570-5669
Main Phone:(903)628-3171

RECEIVED IN

July 6, 2020 ;

COURT OF CRIMINAL APPEALS

JUL 1 32020

Deana Williamson, Clerk
Court of Criminal Appeals
P.0. Box 12308, Capitol Station
Austin, Texas 78711

Deana Williamson, Cierk
(

Re: Ricky Raywood-Vatson v. The State of Texas

Case No. PD-0370-20
Dear Honorable Clerk:
Enclosed for filing with the Court of Criminal Appeals are Ap­
pellant’s Motion for Leave to File Appellant's Amended Motion for
Rehearing and Appellant's Amended Motion for Rehearing. Please
file said documents and bring them to the attention of the Court.
Thank you for your kind assistance in this matter.
i
Re

rnmwr

RIl£ky Haywood-watson
APPELLANT

$B$T Copy
!

Cc w/encl: RH-W

Kim K. Ogg, District Attorney
State Prosecuting Attorney

AVAILABL£

NO. PD-0370-20
COURT OF APPEALS NO. 14-18-00547-CR

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS

RICKY HAYWOOD-WATSON,
Appellant s

v.
THE STATE OF TEXAS,
Appellee.
;

ON APPELLANT’S PETITION FOR DISCRETIONARY REVIEW
FROM THE FOURTEENTH COURT OF APPEALS
HARRIS COUNTY

i

APPELLANT'S MOTION FOR LEAVE TO FILE
APPELLANT'S AMENDED MOTION FOR REHEARING
TO THE HONORABLE COURT OF CRIMINAL APPEALS:
Ricky Haywood-Watson, Appellant, presents this motion for
leave to file Appellant's Amended Motion for Rehearing pursuant
to Texas Rules of Appellate Procedure 79».3. In support of this
motion, Haywood-Watson states the following:

I.
Haywood-Watson timely filed a motion for rehearing of the
i

order that refused his Petition for.Discretionary Review. The

Court has not entered a decision on the motion.

II.
Haywood-Watson seeks to advance a new ground for review that
was not and could not have been raised in the original petition.
See Gambitl

State., 692 S.W.2d 106, 107-(Tex.Grim.App. 1985)
I

(may be possible to use such amendment to advance new ground for
review when rehearing Sought from denial of petition for review).
The question Haywood-Watson seeks to1 present for review is as
follows: In light of Ramos v„ Louisiana,| 590 U.S. ___ , 2020 WL
1906545 (April 20, 2020), is a jury required to agree unanimously
!

on which two or specific acts of sexual labuse were committed by
the defendant in a prosecution for Continuous Sexual Abuse of
Young Child?
New constitutional rules governing the conduct of prosecutions
must be ".applied retroactively to all cases, state or federal,
pending on direct review or not yet final" when the rule was an­
nounced, regardless of whether they constitute a clear break from
past precedenti Griffith v„ Kentucky, 479 U.S. 314, 328 (1987);
Steadman a. State, 360 SW.3d 499, 504 rij. 13 (Tex.Ctim.App. 2012).
In Samos v. Louisiana, the Supreme Court of the United States
announced a new constitutional rule that the term "trial by an
impartial jury" contained within the Sixth Amendment carries with
it the requirement of jury unanimity.
Texas Penal Code § 21.02(d) violates the United States con­
stitutional requirement of a unanimous jury verdict, which is a
recurring issue that this Court has failed to decide since the
statute's inception*
APPELLANT'S MOTION FOR LEAVE

HAYWOOD-WATSON V- STATE " 2

PRAYER
Ricky Haywood-Watson prays that the;Court grant this motion
for leave to file Appellant's Amended Motion for Rehearing*
RespectfiuiLy requested,

Dated: July 6, 2020

Si

■ RICKY HAYWOOD-WATSON
APPELLANT
TDCJ No. 2206869
! Barry B. Telford Unit
3899 State Highway 98
, New Boston, Texas 75570
! Main Phone:(903)628-3171

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the forego­
ing motion, was served by placing Same iri the United States Mail 9
first-class postage prepaid, on the 6th day of July, 2020, ad­
dressed to:
j

Kim K. Ogg, District Attorney
500 Jefferson Street, Suite 600
Houston, Texas 77002

i

State Prosecuting Attorney
P.0. Box 13046
Austin, Texas 78711-3046

w

RIGm HAYWOOD-WATSON
: APPELLANT
;

appellant's motion for leave

!

HAYWOOD-WATSON V. STATE - 3
!

i

APPENDIX E

PD-U J /U
o r\

Ricky Haywood-Wat son
TDCJ No. 2206869, Barry B. Telford Unit
3899 State Highway 98, New Boston, Texas 75570-5669
Main Phone:(903)628-3171

RECEIVED IN

July 6, 2020

COURT OF CRIMINAL APPEALS

JUL 1 32020

Deana Williamson, Clerk
Court of Criminal Appeals
P.O. Box 12308, Capitol Station
Austin, Texas 78711

Deana Williamson, Clerk
(

Re: Ricky Haywood-Vatson v. The State of Texas

Case No. PD-0370-20
Dear Honorable Clerk:
Enclosed for filing with the Court of Criminal Appeals are Ap­
pellant's Motion for Leave to File Appellant's Amended Motion for
Rehearing and Appellant's Amended Motion for Rehearing. Please
file said documents and bring them to the attention of the Court.
Thank you for your kind assistance in this matter.

mpmr

Re

RIifo VaYWOOD-WATSON
APPELLANT

1

lESTCOPy

Cc w/encl: RH-W

Kim K. Ogg, District Attorney
State Prosecuting Attorney

AVAILABLE

I

NO. PD-0370-20
COURT OF APPEALS NO. 14-18-00547-CR

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
. i

RICKY HAYWOOD-WATSON,
Appellant,
!
V.

THE STATE OF TEXAS,
Appellee.

ON APPELLANT'S PETITION FOR DISCRETIONARY REVIEW
FROM THE FOURTEENTH COURT OF APPEALS
HARRIS COUNTY

APPELLANT'S AMENDED MOTION FOR REHEARING
;

TO THE HONORABLE COURT OF CRIMINAL APPEALS:
Ricky Haywood-Watson, Appellant, submits this amended motion
for rehearing pursuant to Texas Rules of Appellate Procedure 79.3
and requests that the Court resubmit this cause for further con­
sideration Of its refusal of his Petition for Discretionary Re­
view.

QUESTION PRESENTED FOR REVIEW
In light of Ramos v. Louisiana, 590 U.S. ___ , 2020 WL 1906545
1

(April 20, 2020), is a jury required to agree unanimously on which

I

:

two or more specific acts of sexual abuse were committed by the
defendant in a prosecution for Continuous Sexual Abuse of Young
Child?

REASON FOR REVIEW
The question presented is a recurring issue that this Court
has failed to decide since the inception of Penal Code § 21'i.02 in
2007. Based on the new constitutional rule established in Romos
v. Louisiana, 590 U.S. ___, 2020 WL 1906545 (April 20•, 2020), the
jury needs to unanimously agree on which two acts of sexual abuse
occurred because they are not manner and means of committing the
offense of Continuous Sexual Abuse of Young Child.
Haywood-Watson was convicted of Continuous Sexual Abuse of
Young Child by a jury that was instructed that it was not required
to agree unanimously on which specific acts of sexual abuse were
committed by the defendant or the exact idate When those acts Were
:

committed. This violated Haywood-Watson'!s right to a jury trial,
as guaranteed by Amendments VI and XIV to the United States Con-

1.

stitution. See Ramos v% Louisiana3 590 U.S. _2020 WL 1906545
(April 20, 2020).

j
i

A person commits the offense of Continuous Sexual Abuse of
Young Child if during a period of 30 days or more in duration, a
person who is age 17 or older commits two or more acts of sexual
abuse against one or more victims who are under the age of 14.
TEX. PEN. CODE § 21.02(b). Subsection (d) states, "If a jury is
the trier of fact, members of the jury ate not required to agree
unanimously on Which specific acts of sexual abuse were commited
by the defendant or the exact date when those acts were committed."
> APPELLANT'S AMENDED MOTION FOR REHEARING

HAYW00D-WATS0N V. STATE - 2

TEX. PEN. CODE § 21.02(d).
i
In Ramos v. Louisiana, 590 U.S. ___ , 2020 WL 1906545 (April
20, 2020), the Supreme Court of the United States explained that
the Sixth Amendment promises that "[i']n :all criminal prosecutions,
the accused shall enjoy the right to a speedy trial by an impar­
tial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascer­
tained by law." Id., slip op. at 3. "But! it says nothing about
what a 'trial by an impartial jury' entails. Still, the text and
structure of the Constitution clearly suggest that the term 'trial
by ah impartial jury' carried with it sojme meaning about the coh^
tent and requirements of a jury ttial. Ojne of those requirements
I
was unanimity." Id. The Supreme Court has repeatedly and over many
years recognized that the Sixth Amendment requires unanimity. And
this requirement applies to state and federal criminal trials
equally.

j

In Haywood-Watson's case, he was convicted by a jury that was
non-unanimous as to which two or more ac|ts of sexual abuse was al­
legedly committed. In the charge of the 'court on guilt-innocence,
the jury was authorized to render and return a verdict without be­
ing unanimous as to the individual acts jof sexual abuse that make
up the series Of acts for an essential element of the offense.
Thus, the jury can find that up to 24 acts occurred (12 jurors
times 2 different acts per juror) and stllll obtain a conviction
under Texas Penal Code § 21.02. Based on; the new constitutional
rule, § 21.02(d) is unconstitutional.

!

Under Texas law, each alleged act of sexual abuse standing
appellant's amended motion for rehearing

;

HAYW00D~WATS0N V. STATE - 3

k.

alone constitutes an alleged offense under Penal Code § 21.021,
Aggravated Sexual Assault, or § 21.11, Indecency With a Child,
among other statutes. For the most part "Texas law requires that
a jury reach a Unanimous verdict about the specific crime that the
defendant committed. This means that the jury must ’agree upon a
single and discrete incident that would constitute the commission
of the offense alleged. '" Cosio v. State', 353 S.W.3d 766, 771-72
(Tex.Grim.App. 2011). In short, the "commits two or more acts of
sexual abuse" element of Continuous Sexual Abuse of Young Child
is not the manner and means of committing the offense, but are
seperate and distinct offenses that requjire jury unanimity.
The reasoning of the Supreme Court of Hawai' i in State v.
Rabago, 81 P.3d 1151 (Haw. 2003), which struck down the state's
similar Statute,.is persuasive and should be followed by this
Court because the Hawai'i court recognized under the state's case
law that the underlying acts are seperate and distinct offenses.
Id., at 1168.
In Dixon v. State, 20l S.W.3d 731 (TLx.Crira.App. 2006), three
dissenting judges oh this Court predicted that the Legislature
would pass a statute that would allow jurors to convict on as many
as 12 different acts. Jd., at 738-39 (Price, J., dissenting, joined
by Meyers and Johnson, JJ.). Actually, the Legislature passed a
statute which doubles that number, for 24 different acts may be
found to have occurred to secure a conviction under the continuous
abuse statute. This Court should grant review to decide this important, recurring question of whether the continuous abuse stat­
ute violates the constitutional requirement for jury unanimity.
APPELLANT'S AMENDED MOTION FOR REHEARING

HAYW00D-WATSON V. STATE - 4

PRAYER
Ricky Haywood-Watson, Appellant, prays that this Court grant
this motion for rehearing, set aside the refusal, resubmit this
cause for another hearing before the Court, reverse the judgment
and sentence in Cause No. 1494189, and render a judgment of ac­
quittal. Alternatively, Haywood-Watson requests that the case be
remanded to the trial court for a new trial.
Respectfully • submitted,

Dated: July 6, 2020

RICKY HAY1
WATSON
: APPELLANT
TDCJ No. 2206869
1 Barry B. Telford Unit
1 3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

CERTIFICATE OF COMPLIANCE
This is to certify that the above motion for rehearing com­
plies with Texas Rules of Appellate Procedure 79.2(c) in the fol­
lowing respects: (1) the ground on which the above motion is based
is limited to intervening circumstances of substantial or con­
trolling affect; and (2) this motion is presented in good faith
and not to delay.
Dated: July 6, 2020

la
RICKY' HATfitOOD-WATSON
APPELLANT

APPELLANT'S AMENDED MOTION FOR REHEARING

HAYWOOD-WATSON V. STATE “ 5

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the forego*ing motion was served by placing same in the United States Mail,
>

first-class psoatge prepaid, On the 6th day of July, 2020, ad­
dressed to:;
Kim K. Ogg, District Attorney
500 Jefferson Street, Suite 600
Houston, Texas 77002
State Prosecuting Attorney
P.0. Box 13046
Austin, Texas 78711-3046
rick/ HAYWOOD-WATSON
APPELLANT

i

i

appellant's amended motion for rehearing

HAYWOOD-WATSON V. STATE - 6

APPENDIX F

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

COA No. 14-18-00547-CR
7/14/2020
HAYWOOD-WATSON, RICKY Tr. Ct. No. 1494189
PD-0370-20
On this day, the Appellant’s pro se motion for leave to file an amended petition for
discretionary review has been granted.
Deana Williamson, Clerk
RICKY HAYWOOD-WATSON
TELFORD UNIT - TDC # 2206869
3899 STATE HWY 98
NEW BOSTON, TX 75570

APPENDIX G

\l

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

8/19/2020
14-18-00547-CR
HAYWOOD-WATSON, RICKY Tr. Ct. No. 1494189
PD-0370-20
On this day, the Appellant’s Pro Se motion for rehearing has been denied.
Deana Williamson, Clerk
RICKY HAYWOOD-WATSON
TELFORD UNIT - TDC # 2206869
3899 STATE HWY 98
NEW BOSTON, TX 75570

APPENDIX H

PENAL CODE
TITLE 5. OFFENSES AGAINST THE PERSON
CHAPTER 21. SEXUAL OFFENSES
Sec. 21.01. DEFINITIONS.
In this chapter:
(1)
"Deviate sexual intercourse" means:
(A)
any contact between any part of the genitals of one
person and the mouth or anus of another person; or
(B) the penetration of the genitals or the anus of another
person with an object.
(2)
"Sexual contact" means, except as provided by Section
21.11, any touching of the anus, breast, or any part of the genitals of
another person with intent to arouse or gratify the sexual desire of any
person.
(3)
"Sexual intercourse" means any penetration of the female
sex organ by the male sex organ.
(4)
"Spouse" means a person to whom a person is legally married
under Subtitle A, Title 1, Family Code, or a comparable law of another
jurisdiction.
Acts 1973, 63rd Leg., p. 883, ch. 399, Sec. 1, eff. Jan. 1, 1974.
Amended by Acts 1979, 66th Leg., p. 373,
1979; Acts 1981, 67th Leg., p. 203, ch.
Acts 1993, 73rd Leg., ch. 900, Sec. 1.01,
77th Leg., ch. 739, Sec. 1, eff. Sept. 1,
Amended by:

ch. 168, Sec. 1, eff. Aug. 27,
96, Sec. 3, eff. Sept. 1, 1981;
eff. Sept. 1, 1994; Acts 2001,
2001.

Acts 2005, 79th Leg., Ch. 268 (S.B. 6), Sec. 1.124, eff. September
1, 2005.

Sec. 21.02. CONTINUOUS SEXUAL ABUSE OF YOUNG CHILD OR CHILDREN.
(a)
In this section, "child" has the meaning assigned by Section
22.011(c).
(b)

A person commits an offense if:
during a period that is 30 or more days in duration, the
(1)
person commits two or more acts of sexual abuse, regardless of whether

the acts of sexual abuse are committed against one or more victims; and
(2)
at the time of the commission of each of the acts of sexual
abuse, the actor is 17 years of age or older and the victim is a child
younger than 14 years of age, regardless of whether the actor knows the
age of the victim at the time of the offense.
(c)
For purposes of this section, "act of sexual abuse" means any
act that is a violation of one or more of the following penal laws:
aggravated kidnapping under Section 20.04(a)(4), if the
(1)
actor committed the offense with the intent to violate or abuse the
victim sexually;
(2)
indecency with a child under Section 21.11(a)(1), if the
actor committed the offense in a manner other than by touching, including
touching through clothing, the breast of a child;
(3)
sexual assault under Section 22.011;
(4)
aggravated sexual assault under Section 22.021;
(5) burglary under Section 30.02, if the offense is punishable
under Subsection (d) of that section and the actor committed the offense
with the intent to commit an offense listed in Subdivisions (l)-(4);
(6)
sexual performance by a child under Section 43.25;
(7)
trafficking of persons under Section 20A.02(a)(7) or (8);
and
(8)
compelling prostitution under Section 43.05(a)(2).
(d)
If a jury is the trier of fact, members of the jury are not
required to agree unanimously on which specific acts of sexual abuse were
committed by the defendant or the exact date when those acts were
committed. The jury must agree unanimously that the defendant, during a
period that is 30 or more days in duration, committed two or more acts of
sexual abuse.
(e) A defendant may not be convicted in the same criminal action of
an offense listed under Subsection (c) the victim of which is the same
victim as a victim of the offense alleged under Subsection (b) unless the
offense listed in Subsection (c):
(1)
(2)

is charged in the alternative;

occurred outside the period in which the offense alleged
under Subsection (b) was committed; or
(3)
is considered by the trier of fact to be a lesser included
offense of the offense alleged under Subsection (b).
(f)

A defendant may not be charged with more than one count under

Subsection (b) if all of the specific acts of sexual abuse that are
alleged to have been committed are alleged to have been committed against
a single victim.
It is an affirmative defense to prosecution under this section
(g)
that the actor:
(1) was not more than five years older than:
(A)
the victim of the offense, if the offense is alleged
to have been committed against only one victim; or
(B)
the youngest victim of the offense, if the offense is
alleged to have been committed against more than one victim;
(2) did not use duress, force, or a threat against a victim at
the time of the commission of any of the acts of sexual abuse alleged as
an element of the offense; and
(3) at the time of the commission of any of the acts of sexual
abuse alleged as an element of the offense:
(A) was not required under Chapter 62, Code of Criminal
Procedure, to register for life as a sex offender; or
was not a person who under Chapter 62 had a reportable
(B)
conviction or adjudication for an offense under this section or an act of
sexual abuse as described by Subsection (c).
(h) An offense under this section is a felony of the first degree,
punishable by imprisonment in the Texas Department of Criminal Justice
for life, or for any term of not more than 99 years or less than 25
years.
Added by Acts 2007, 80th Leg., R.S., Ch. 593 (H.B. 8), Sec. 1.17, eff.
September 1, 2007.
Amended by:
Acts 2011, 82nd Leg., R.S., Ch. 1 (S.B. 24), Sec. 6.04, eff.
September 1, 2011.
Acts 2017, 85th Leg., R.S., Ch. 685 (H.B. 29), Sec. 31, eff.
September 1, 2017.
Acts 2017, 85th Leg., R.S., Ch. 1038 (H.B. 1808), Sec. 2, eff.
September 1, 2017.

